<html>
<title> - HEARING ON THE NOMINATIONS OF JEFFERY M. BARAN AND STEPHEN G. BURNS TO BE MEMBERS OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 113-795]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-795

HEARING ON THE NOMINATIONS OF JEFFERY M. BARAN AND STEPHEN G. BURNS TO 
            BE MEMBERS OF THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys


                                    ________
                                    
                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-199 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 9, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Waxman, Hon. Henry, U.S. Representative from the State of 
  California.....................................................     2
Inhofe, Hon. James, U.S. Senator from the State of Oklahoma......     3
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...     6
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     7
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     8
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    10
Markey, Hon. Edward, U.S. Senator from the State of Massachusetts    16
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    18

                               WITNESSES

Baran, Jeffrey M., Nominated to be a member of the Nuclear 
  Regulatory Commission..........................................    19
    Prepared statement...........................................    21
    Response to an additional question from Senator Boxer........    23
    Responses to additional questions from:
        Senator Booker...........................................    24
        Senator Markey...........................................    24
        Senator Vitter...........................................    28
        Senator Inhofe...........................................    43
        Senator Barrasso.........................................    45
        Senator Sessions.........................................    46
        Senator Crapo............................................    48
        Senator Wicker...........................................    50
        Senator Fischer..........................................    51
Burns, Stephen G., Nominated to be a member of the Nuclear 
  Regulatory Commission..........................................    53
    Prepared statement...........................................    55
    Response to an additional question from Senator Boxer........    58
    Responses to additional questions from:
        Senator Booker...........................................    59
        Senator Markey...........................................    60
        Senator Vitter...........................................    63
        Senator Inhofe...........................................    82
        Senator Barrasso.........................................    82
        Senator Sessions.........................................    84
        Senator Crapo............................................    86
        Senator Wicker...........................................    88
        Senator Fischer..........................................    89
        
        
 
HEARING ON THE NOMINATIONS OF JEFFERY M. BARAN AND STEPHEN G. BURNS TO 
            BE MEMBERS OF THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Building, Hon. Barbara Boxer (chairman of 
the committee) presiding.
    Present: Senators Boxer, Whitehouse, Cardin, Markey, 
Inhofe, Barrasso, Sessions and Fischer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning.
    Today, the EPW Committee is considering two nominees for 
the Nuclear Regulatory Commission, Jeffrey Baran and Stephen 
Burns.
    These two nominees are qualified and accomplished 
professionals who have demonstrated that they have the ability 
to get the job done.
    Mr. Baran has had more than 10 years of experience working 
on nuclear energy issues in the House, including his current 
role as Staff Director for Energy and Environment on the Energy 
and Commerce Committee.
    That is why we have been graced this morning by the 
presence of Congressman Henry Waxman, one of my heroes in 
politics. He is going to introduce one of our nominees.
    I want to say that Mr. Baran has also spent more than 5 
years as that committee's counsel and 5 years as counsel on the 
House Oversight and Government Reform Committee. At the Energy 
and Commerce Committee, Mr. Baran was the lead staffer on 13 
NRC hearings, including those related to NRC structure, nuclear 
waste and post-Fukushima safety. He also worked on the 
legislation related to the NRC and other nuclear issues.
    On a personal note, I do want to say congratulations to Mr. 
Baran and your wife on the birth of your son, Gus, on Friday. 
That is a milestone you will never forget.
    Over the past three decades, Mr. Burns has served in many 
roles at NRC. Most recently, Mr. Burns served as General 
Counsel from 2009 to 2012. He also served as senior staffer to 
a former chairman and deputy director of the Region Operations 
and Enforcement Division. Mr. Burns has played a critical role 
in a wide range of NRC policy and enforcement activities.
    Since 2012, Mr. Burns has been the head of legal affairs 
for the Organization for Economic Cooperation and Development's 
Nuclear Energy Agency.
    We all know NRC's mission is ``to ensure the safe use of 
radioactive materials for beneficial civilian purposes while 
protecting people and the environment.'' I want to repeat that 
because I think it is worth repeating. The NRC's mission is 
``to ensure the safe use of radioactive materials for 
beneficial civilian purposes while protecting people and the 
environment.''
    I believe the experience and understanding of both the 
nominees of NRC's legal framework will serve them well in 
supporting NRC's mission. Rather than take the committee's time 
in expressing my concerns about what is happening in 
California, I will ask both nominees, at the appropriate time, 
if they will work with me.
    We have a plant that is being decommissioned. They are 
asking for all kinds of exemptions from safety rules. That 
concerns me. We have another plant that has not met the 
standards consistent with the new earthquake information that 
we now know.
    I have particular concerns but rather than go into them in 
my opening statement, I will save them for later. I do want to 
say in all the time that I have been here, I think these are 
the two most qualified candidates I have seen.
    That makes me really happy because this is really important 
as our nuclear plants are aging. We need to make sure that they 
are safe because frankly, if they are not safe and if they 
cause problems, they are problems for the entire industry and 
the industry's future. That is where I stand on it.
    Senator Boxer. I know that Representative Waxman has other 
things he must do so if it is OK with the committee.
    Senator Inhofe. That is fine.
    Senator Boxer. Thank you, Senator Inhofe.
    We will turn to Representative Waxman. Welcome.

  OPENING STATEMENT OF HON. HENRY WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, very much, Madam Chairman and 
members of the committee.
    It is a great honor for me to be with you today to 
introduce Jeff Baran, who I believe will be an enormously 
effective NRC commissioner.
    Jeff has had quite a week. Madam Chair, you alluded to the 
fact that his son, Gus, was just born 4 days ago. It was a 
question of timing because I think some thought the birth might 
happen today and then he would have to make a choice of being 
here or with the birth of his child. I would hope you would put 
your official duties higher but you did not have to make that 
choice. Also, today is the first day for his daughter, Mia, to 
go to preschool.
    Jeff was born and raised in Illinois, went to school in 
Ohio, to grad school and then to law school at Harvard where he 
met his wife, Michelle.
    I can attest to the fact that he is a very effective, 
reliable member of the staff. He worked with me when I was 
chairman of the Oversight and Government Reform Committee. In 
that capacity, he worked on important legislation that had 
strong bipartisan support.
    Congressman Davis, who was chairman of the committee during 
part of the time, worked on a bipartisan basis to get reform 
legislation on contracting so that we could make sure we were 
protecting the taxpayers of this country from waste, fraud and 
abuse.
    When I became chairman of the Energy and Commerce 
Committee, he came over to that committee and has worked on 
energy issues where he has also been very skillful in crafting 
bipartisan proposals with the Republicans on our committee.
    He is an expert on the NRC and any other energy issues at 
the Department of Energy. When he worked on legislation, he 
looked for a way to build a consensus. A good example of that 
was the pipeline safety bill of 2012. I think it passed the 
House and the Senate unanimously.
    He also had legislation to develop consensus adjustments to 
efficiency standards for walk-in freezers and other appliances. 
Also, the hydropower bill that President Obama signed into law 
is an example of his efforts to reach a consensus on a 
bipartisan basis.
    Jeff is a fair and an open-minded person who listens to all 
sides. He is able to take tough issues and work together with 
his colleagues to get things done. I cannot think of anyone 
from my own experience that is more skilled and collegial, who 
will be a major asset as an NRC commissioner.
    I want to introduce him to you and take my leave because my 
committee is meeting at the same time.
    Senator Boxer. Of course, Congressman.
    Mr. Waxman. I would be happy to talk with any of you 
privately about him to tell you the things I am not saying 
publicly but all those things would be consistent with what I 
have said today. I think he will do a great job. I urge you to 
give him favorable consideration.
    Senator Boxer. Thank you, Congressman.
    We will turn to Senator Inhofe and then Senator Cardin.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chair.
    I had a chance to visit with both nominees yesterday and 
had a very thorough discussion of some of the problems that are 
out there. I think they will work well together.
    I was a little disturbed about the rapid process we are 
using. There is an effort to even do this prior to the recess, 
so I appreciate the fact that we had that time. Yet, I think 
the questions for the record are going to be due by the end of 
today, is my understanding, and then they have a 24-hour 
turnaround. Normally, that process takes several days and 
sometimes, several weeks.
    We understand we are going to be moving on with this. We 
usually provide about 2 weeks for us to craft questions for the 
record but we are ready to do this now.
    That said, there are a lot of problems at the NRC happening 
right now. In 2003, when I was chairman of the Air 
Subcommittee, I helped shepherd the 30 percent increase in the 
NRC's budget.
    I might add, I discussed this with both nominees, that at 
that time, when I became chairman, at that time Republicans 
were in majority and I chaired that subcommittee, they had not 
had an Oversight Committee hearing in I think it was 12 years. 
Mr. Burns, I think you were very much aware of what was going 
on at that time.
    We have changed that. We have had a chance to talk about 
these things, to prepare and be a little more deliberate. As I 
recall, we actually put out every three or 4 months, we were 
going to have an oversight hearing with certain expectations. I 
think that was a major improvement.
    During that time, I helped shepherd a 30 percent increase 
in the NRC's budget at its request to accommodate the expected 
nuclear renaissance that we thought was coming. It was expected 
at that time that four design certificates and 17 construction 
and operating license applications would be considered by the 
NRC.
    At that time, the agency had about 1,500 employees 
nationwide and the operating budget was about $300 million a 
year. Today, the budget exceeds $1 billion a year and the 
agency employees 3,800.
    The agency has now grown above and beyond the 30 percent I 
helped shepherd and has more than doubled. Since then, the 
agency has had less than half the work that we anticipated at 
that time to justify the increased budget. It has approved only 
one design certificate and two new license applications.
    A legitimate review of the agency's staff levels and 
current workloads needs to be examined by the Commission. I 
have talked with both of you about this and cuts need to be 
made if current staffing levels cannot be justified when 
compared to the mission and the needs of the NRC, then versus 
now.
    This simple question needs to be asked: can we do the same 
job with 1,500 like we did before instead of the current 3,800 
employees?
    The main consequence of an overstaffed NRC, in my opinion, 
is over regulation. I talked about this. They sit around there 
with nothing to do and not enough to do. They have a lot of 
people so what do they do? Their tendency is to regulate more. 
I think this is what we are looking at right now.
    Many of these new regulations have been in response to the 
Fukushima disaster in Japan. While each rule by itself may not 
be considered costly, when added to the many other orders and 
regulations being considered, the cumulative costs skyrocket.
    This has become particularly problematic for the industry 
as it has struggled to regain its footing during a season of 
intense competition and shaky profitability, making the 
industry increasingly sensitive to the expensive regulations.
    The NRC needs to recognize this and take into full 
consideration as it considers its existing regulations and any 
new ones. This is kind of similar to the EPA, what they propose 
for its air rule, Section 321(a) of the Clean Air Act says they 
are supposed to keep track of their regulations and their 
cumulative costs.
    You are supposed to be doing the same. I think that is very 
important. The EPA has not been doing this but the EPA is an 
adversarial agency. That is not the situation today. They do 
not try to understand the needs of industry and the American 
people. They always have a political axe to grind.
    The NRC has not been that way and should not become that 
way. We expect more from the NRC and those are the things that 
I spoke privately with you about in my office. They were things 
I think you need to address and I look forward to the testimony 
of our witnesses.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Mr. Burns and Mr. Baran, thank you for being here. Madam 
Chairman, while I appreciate that we're having this hearing 
today, I'm concerned about the expedited timeline on which 
we're considering these nominees. The President nominated them 
just before the August recess, and there was an effort on the 
part of this Committee to conduct the confirmation hearing 
during the last week of the session--and before the Committee 
received any of the paperwork from the nominees.
    While we were able to delay the hearing until now, the 
timeline is still rushed. I don't believe everyone on the 
Committee has even had the opportunity to meet with the 
nominees in person, and yet it's my understanding that the 
Questions for the Record will be due tomorrow, turned around in 
24 hours by the nominees, and then we'll have a business 
meeting to mark them up and send them to the floor on Thursday. 
Usually we provide about 2 weeks for Members to craft their 
QFRs and then consider the nominees only after Members have 
received satisfactory answers back. That said, we have a lot of 
problems at the NRC right now. Back in 2003, I helped shepherd 
a 30 percent increase in the NRC's budget--at its request--to 
accommodate the expected nuclear renaissance. It was expected 
at that time that 4 design certificates and 17 Construction and 
Operating License Applications would be considered by NRC.
    At that time, the agency had about 1,500 employees 
nationwide, and the operating budget was about $300 million per 
year. Today, the budget exceeds $1 billion per year and the 
agency employs 3,800 people. The agency has now grown above and 
beyond the 30 percent I helped shepherd. It's more than 
doubled. And since then, the agency has had less than half of 
the work that we anticipated--it has approved only one design 
certificate and two new license applications.
    A legitimate review of the agency's staff levels and 
current workloads needs to be examined by the Commission, and 
cuts need to be made if current staff levels cannot be 
justified when compared to the mission and needs of the NRC. 
This simple question needs to be asked: can we do the same job 
with 1,500 like we did before, instead of with our current 
3,800? The main consequence of an overstaffed NRC is 
overregulation, and we've seen this with the relaxed 
perspective the agency has taken on the cumulative cost of its 
regulations. Many of these new regulations have been in 
response to the Fukushima disaster in Japan, and while each 
rule by itself may not be considered costly, when added to the 
many other orders and regulations being considered, the 
cumulative costs skyrocket.
    This has become particularly problematic for the industry 
as it has struggled to regain its footing during a season of 
intense competition and shaky profitability, making the 
industry increasingly sensitive to expensive regulations that 
do little--if anything--to actually improve their safe 
operation. NRC needs to recognize this and take it into full 
consideration as it considers its existing regulations and any 
new ones. This is something the EPA is supposed to do for its 
air rules. Section 321(a) of the Clean Air Act says they are 
supposed to keep track of their regulations' cumulative cost. 
EPA has not been doing this, but EPA is an adversarial agency. 
They do not try to understand the needs of industry and the 
American people. They always have a political axe to grind. NRC 
hasn't been that I way--and it should not become that way. I 
expect more from the NRC, and I hope you two appreciate where I 
am coming from.
    Again, thank you again for being here; I look forward to 
asking you questions.

    Senator Boxer. Thank you, Senator.
    I just want to reassure my colleagues on both sides that 
Senator Vitter and I worked on how to handle these openings 
together. We never went forward until we got his approval. It 
is because we have two vacancies and he urged us to apply the 
same sense of urgency.
    Senator Inhofe. I was not complaining about it. It was just 
an observation.
    Senator Boxer. I know, and it is a very legitimate 
observation, but we did have a resignation and someone who was 
not reappointed. I just want to reassure the committee that we 
would never have done this if we didn't have the agreement of 
Senator Vitter.
    Also, Senator, you have pointed out many times the lack of 
oversight but since I became chairman, we have done nine 
oversight hearings. I just wanted to make that clear for the 
record.
    Senator Whitehouse has agreed to allow Senator Cardin to go 
first because of his schedule, plus he is going to introduce 
Mr. Burns.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, first of all, thank you for 
accommodating this hearing. Let me thank Senator Whitehouse for 
allowing me to go next so I can get the introduction of Mr. 
Burns shortly after Congressman Waxman introduced Mr. Baran.
    We welcome both of you and your families and we thank you 
both for your willingness to serve our country. We know it is a 
family event, public service, so we also thank your families 
for this.
    As the Senator from Maryland, I take great interest in NRC 
since it is headquartered in Rockville, Maryland. Maryland has 
two nuclear reactors at Culvert Cliffs. It is a matter of great 
importance to Maryland.
    NRC is an independent agency that neither promotes nor 
hinders nuclear power but regulates it in the most efficient 
and effective way, recognizing the need for public safety and 
our environment. I strongly support its mission. I am pleased 
our two nominees are willing to serve in this extremely 
important position.
    Mr. Burns is a dedicated public servant who spent 33 years 
at NRC before becoming the head of Legal Affairs for the 
Organization for Economic Cooperation and Development, OECD, a 
nuclear energy agency in Paris, a position he has held since 
2012.
    Mr. Burns was NRC's general counsel from 2009 to 2012, 
deputy general counsel from 1998 to 2009, and associate general 
counsel for Hearings, Enforcement and Administration from 1994 
to 1998.
    I would emphasize that Mr. Burns was promoted to general 
counsel by then NRC Chairman, Dale Klein, a Republican. He 
works across party lines very effectively.
    Steve Burns also served at NRC as director of the Office of 
Commission Appellate Adjudication from 1991 to 1994, executive 
assistant to the then NRC chairman, Kenneth Carr from 1989 to 
1991, legal assistant to Commissioner Carr from 1986 to 1989 
and deputy director of the Regional Operations and Enforcement 
Division from 1986 to 1991. He began his career at NRC as an 
attorney in the Regional Operations and Enforcement Division in 
1978.
    I went through all that because I don't think we can find 
anyone who has more experience with NRC than Mr. Burns. He has 
devoted his life to these issues.
    He received his BA from Colgate University, his JD from the 
George Washington University Law Center and has been a long 
time resident of the State of Maryland and we are very proud of 
that, except for the time that he lived in Paris because of his 
duties at OECD. We will forgive you for your leaving us for 
that short period of time.
    I know that Christopher, your son, is here. You have a 
daughter, Allison, who I have been told was a member of the 
field hockey championship in our State. Congratulations to her.
    Steve Burns and his wife, Joan, have been active in local 
community organizations such as the PTA, Boy Scouts and their 
church.
    Madam Chair, I doubt if we could find a more qualified 
individual to fill this extremely important role. I am very 
proud to introduce Stephen Burns to the committee. I would urge 
his favorable consideration.
    Senator Boxer. Thank you, Senator Cardin.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Madam Chair.
    I thank our nominees. I enjoyed the opportunity to meet 
with you and discuss my ideas, insights and concerns about the 
Nuclear Regulatory Commission. It is a very, very important 
commission. You would be taking seats that have been held by 
very competent persons.
    It was said earlier that you two are the most qualified 
nominees we have had. I don't think that is accurate really. 
Former NRC Commissioner George Apostolakis, who is being 
replaced, is a member of the National Academy of Engineering 
and has a PhD in Engineering Science and Applied Mathematics.
    He received awards for his contributions to nuclear safety 
before his nomination and was a noted risk analysis expert, the 
kind of background you would look for Former NRC Commissioner 
William Magwood, IV, who is being replaced, served for many 
years as the Department of Energy's Nuclear Energy Director. 
That is the work he focused on and helped arrest the decline in 
nuclear energy engineering in the United States. At the time of 
his nomination, he was familiar with the technical and 
technological aspects of the nuclear industry.
    I feel we have a lawyer who comes from a little different 
background. Mr. Baran served as a staff member to Congress. 
They did have some oversight of nuclear issues but that wasn't 
your primary duty. Senator Waxman referred to the pipeline 
safety legislation, hydropower legislation, not focused 
primarily on nuclear issues. Mr. Burns, you have a long resume 
as a legal staffer.
    I expressed my concern to you about the memo for then 
Chairman Jaczko authorizing him to assume emergency powers that 
I think was unwise. I do not believe the accident in Japan 
justified giving a legal opinion, whether he exercised it or 
not fully, but you gave a legal opinion that would authorize 
him to execute decisions on behalf of the NRC without 
consulting other members. I think that was a mistake.
    I am also concerned about the court criticism of the 
Nuclear Regulatory Commission's actions with regard to Yucca 
Mountain. I think some of the efforts you made there legally 
have been criticized in that regard.
    Gentlemen, I know nothing bad about you personally. You 
have a general appreciation for the issues relevant to this 
institution. It is not in my view the perfect resume.
    I understand Senator Reid thinks he has great influence 
over this commission and these nominees are a part of his 
involvement. He certainly has opposed Yucca Mountain. We spent 
$15 billion preparing that site and still have not yet had it 
operational.
    In conclusion, thank you for your willingness to serve. You 
are entitled to fair and just consideration. I served with 
Senator Inhofe when I first came to the Senate on that 
committee, when he chaired that subcommittee. We spent a lot of 
time talking about nuclear issues for America.
    I believe that nuclear power has to be a part of the mix. 
We have 50 to 60 years where not one American has been killed 
or made ill even as a result of a nuclear power accident. It 
represents 60 percent of the carbon free electricity generated 
in America.
    This commission, at this critical time, has the potential 
for good to help this industry survive and be successful in a 
safe way and it can go in the other direction. It can burden 
the industry so much that it cannot be successful in the 
future.
    If you are confirmed, I hope you will understand the 
gravity of the office you would be undertaking and understand 
these issues as you do your work and would be willing to resist 
political and emotional pressures and do the right thing for 
the country.
    Thank you.
    Senator Boxer. Thank you, Senator.
    We will now turn to Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Just briefly.
    As chairman of the Clean Air and Nuclear Safety 
Subcommittee, I just want to say that I support both of these 
nominees.
    I share Senator Sessions' sentiment regarding the carbon 
free nature of nuclear power and would urge these candidates, 
if they are confirmed, to make sure that the Commission is not 
an undue impediment, particularly to the development of new 
nuclear technologies like thorium reactors, traveling wave 
reactors and small modular reactors.
    I think there is enormous promise in those, particularly in 
ones that can burn through our existing nuclear waste and turn 
it back into healthy power and energy rather than sitting there 
as poisonous and dangerous waste.
    Also, I will urge them both to be active on the safety 
side. Here I have a Rhode Island interest. Rhode Island is 
within the 50 mile ingestion exposure pathway for both the 
Pilgrim and Millstone nuclear plants which are not located in 
our State but, as I said, we are in the risk area for them if 
things go wrong.
    I think it is very important that the NRC be active in 
making sure that the operators of these plants are 
energetically participating in the safety and potential 
evacuation measures that need to be established and in place in 
case there is an event.
    It is not exactly what the industry wants to lead with so I 
think it is important for the NRC to be a strong voice in that 
area.
    Based on conversations I have had with both applicants, I 
think they understand my views and I am prepared to support 
their nominations.
    May I ask unanimous consent that my full statement be made 
a matter of record?
    Senator Boxer. Without objection, so ordered.
    Senator Whitehouse. Thank you, Madam Chairman.
    [The prepared statement of Senator Whitehouse follows:]

          Statement of Hon. Sheldon Whitehouse, U.S. Senator 
                     from the State of Rhode Island

    Thank you, Chairman Boxer and Ranking Member Vitter, for 
holding this hearing to consider the nominations of Jeffery 
Baran and Stephen Burns to serve as members of the Nuclear 
Regulatory Commission.
    One of the NRC's most important functions is to ensure our 
country's active and retired reactors are safe and secure. We 
don't have any nuclear power plants in Rhode Island, but we are 
within the 50-mile Ingestion Exposure Pathway of the Millstone 
nuclear power station in Connecticut and the Pilgrim nuclear 
power station in Massachusetts. Both plants sit on the Atlantic 
Coast, where they face increasing risks from extreme weather 
events, coastal flooding, and sea-level rise, caused by carbon 
pollution changing our atmosphere and oceans. Ensuring these 
facilities can withstand natural disasters or other emergencies 
is important to Rhode Island, especially in the face of rising 
threats from climate change.
    The Fukushima disaster reminds us that technology at the 
world's nuclear facilities has remained largely stagnant over 
the past sixty years, despite significant scientific advances 
and how high the stakes are. In the U.S., our nuclear fleet is 
aging, and in the last few years, many reactors have gone 
offline.
    An aging and retiring fleet raises questions about safety, 
but also presents new challenges. When nuclear reactors close, 
other power sources generally must fill the gap. To reduce 
carbon pollution--particularly, to meet the targets outlined in 
the President's Climate Action Plan--we must explore all 
potential options and technologies for zero-carbon power. This 
includes the continued, safe use of our existing reactors, and 
investing in advanced nuclear technologies, such as small 
modular reactors and traveling wave reactors, which may be able 
to produce abundant energy while generating less carbon 
pollution.
    The NRC has an important role to play in the implementation 
of advanced nuclear technologies by promptly reviewing new 
reactor designs and applying the lessons learned from disasters 
like Fukushima to ensure that designs are safe.
    The nominees before us are eminently qualified and up to 
the task.
    Jeff Baran is a long-time congressional aide who has 
significant energy expertise, including through his work on the 
House Energy and Commerce Committee, where he helped oversee 
NRC's programs, policies, licensing, and budget. Mr. Baran has 
a strong record of working on bipartisan legislation, including 
bills to address pipeline safety, drilling safety, electric 
grid security, electric grid reliability, medical isotopes, 
hydropower licensing, and energy efficiency. His congressional 
experience, knowledge of nuclear issues and the energy sector 
more broadly, and his willingness and ability to work across 
the aisle will serve him, the NRC, and this Committee well as 
we work to address our nation's nuclear challenges.
    Stephen Burns is also well qualified to serve as an NRC 
Commissioner. His more than thirty years of experience working 
at NRC, including as General Counsel, speak to his immense 
knowledge of the agency and the issues it faces, as well as his 
dedication to public service. Mr. Burns has worked for multiple 
NRC Chairmen and dozens of Commissioners over his career, and 
will be a strong addition to the NRC as a Commissioner himself.
    If they are confirmed, the NRC will benefit from the 
independent judgment and expertise of both Jeff Baran and 
Stephen Burns. I welcome the nominees to our Committee today, 
and am pleased to support their nominations.

    Senator Boxer. Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman.
    I appreciate the opportunity to have this hearing today on 
the two nominees to sit on the Nuclear Regulatory Commission. 
Congratulations to both of you on your nominations.
    First, let me say that the Nuclear Regulatory Commission is 
vital to ensuring nuclear safety. It is important for this 
committee to make sure this mission is carried out effectively.
    Although there are some who may question policy decisions 
made by the Commission, I believe, Madam Chairman, that we have 
come a long way from where the Commission was just a few years 
ago under the previous chairman.
    I am always concerned that the progress the NRC has made 
could be undone if we don't have qualified individuals in all 
the commissioner slots on the Commission. For example, the 
Administration failed to renominate Commissioner Apostolakis to 
continue his tenure on this Commission.
    I don't understand the rationale for this at all. I agree 
with Senator Sessions. He was a vital member of the Commission 
with years of experience and the President failed to renominate 
him. It appears that politics, not qualifications, were at the 
heart of the decision.
    In an article that appeared in Politico on August 27 
entitled, ``How Reid Holds Veto Power Over Obama,'' the article 
describes the Majority Leader's strong influence in 
micromanaging the selection of nominees to the NRC as well as 
the Federal Energy Regulatory Commission for political gain.
    The article states, ``The Nevada Democrat's unusually tight 
grip on nominations for the Nuclear Regulatory Commission and 
the Federal Energy Regulatory Commission has given him an 
effective veto power over the people Obama appoints to their 
five-member leadership boards. They, in turn, have advanced 
policy priorities important to his State from blocking the 
proposed nuclear waste site in Yucca Mountain to opening the 
electrical grid to more wind, solar and geothermal plants 
across the west.''
    Madam Chairman, I ask unanimous consent that a copy of this 
article from Politico be included in the record.
    Senator Boxer. Without objection.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Senator Barrasso. We do need to maintain a full, qualified 
slate of commissioners who continue to protect our communities 
by ensuring nuclear safety. This is best achieved by having 
experienced commissioners who aren't removed and called names 
on the Senate floor because they don't share the Majority 
Leader's narrow political agenda.
    The Nuclear Regulatory Commission is an important asset to 
overseeing nuclear power. The Commission can ensure that 
nuclear energy can continue to be an important part of 
America's energy mix. It is safe, baseload power that runs 24 
hours a day, 7 days a week. Nuclear energy also can make 
America energy secure and energy independent.
    In my home State of Wyoming, uranium is in abundance. If we 
can continue to develop this resource, we can have a steady 
supply of domestic fuel stock to power American homes and 
businesses for years to come.
    If we are to have a true, all out, all of the above energy 
strategy, we must continue with building new nuclear power 
plants. This is essential to the future of nuclear power in 
America.
    What we cannot do is hamper nuclear power by over 
regulating the plants that we have running today. We must 
strike a balance to ensure the safety of our communities while 
continuing to ensure the viability of nuclear power.
    We need to have nominees who will support policies that 
ensure nuclear safety while allowing nuclear energy to continue 
to be a vital part of our Nation's energy mix.
    Thank you, Madam Chairman. I look forward to the testimony.
    Senator Boxer. Thank you, Senator.
    Senator Markey.

           OPENING STATEMENT OF HON. EDWARD MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you, Madam Chair. Thank you for 
calling this very important hearing to consider the nominations 
of two highly qualified individuals to serve as Nuclear 
Regulatory commissioners.
    I have served on one of the NRC's oversight committees for 
more than 38 years. Throughout that time, I have seen many fine 
and dedicated chairmen, commissioners and staff work valiantly 
to ensure the safety and security of this Nation's nuclear 
facilities.
    While I have often been a critic of many of the agency's 
actions, throughout most of that time, I have been able to get 
the answers to the questions as well as the materials which I 
have needed in order to conduct my oversight and legislative 
responsibilities.
    Regrettably, that changed about 2 years ago after I sent a 
series of oversight letters requesting information about 
serious safety allegations brought to my office by 
whistleblowers. Instead of answering the letters, the 
Commission altered its policy on how it would communicate with 
Congress going forward.
    It said that individual Senators would no longer be 
entitled to receive non-public documents from the agency, even 
if the materials being requested were about a nuclear reactor 
located in the Senator's State.
    I was successful in reversing this misguided decision 
legislatively. The law now requires the NRC to abide by its old 
policy but the agency is still refusing to comply with this law 
and will not respond to many of my information requests about 
serious safety and security matters.
    At the same time, the NRC is also confronted with other 
serious challenges. It is nowhere near finished implementing 
the safety measures recommended by its top experts following 
the Fukushima meltdowns.
    It is facing a number of newly decommissioning reactors for 
the first time in many years and has to address the spent fuel 
that is filling the spent fuel pools at reactor sites to 
capacity.
    It is increasingly coming under fire for ignoring the 
safety or security warnings of its own employees who are then 
retaliated against because they raised the concerns in the 
first place.
    There is nothing more certain to undermine confidence in an 
agency, and by extension the nuclear power sector as a whole, 
than this dangerous combination of secrecy, stalling and 
whistleblower retaliation.
    I am very hopeful that the two of you can help the agency 
restore some of that confidence and I am grateful to you both 
for agreeing to take on this responsibility. You are both 
dedicated and qualified professionals with this expertise and 
experience that a strong regulator needs.
    Mr. Baran has worked closely with me and with my staff for 
years and we have worked on many issues together. For example, 
we worked together to include the nuclear energy provisions in 
the Waxman-Markey bill. That passed through the House of 
Representatives with the endorsement of the Nuclear Energy 
Institute.
    We also worked together on the passage of the Markey-Waxman 
bill to increase the domestic supply of medical isotopes and 
the passage of a second bill with Fred Upton through the House 
where we upgraded the security of our electric grid so that it 
would not be vulnerable to cyber attack.
    In each one of those instances, all of this expertise is 
directly relevant to the job for which he is sitting here as a 
nominee. He is a consummate professional, unfailingly 
knowledgeable and with an uncanny ability to devise a 
bipartisan compromise when no one believes compromise is 
possible.
    If confirmed, I know he will also have a strong 
appreciation for what information Congress needs to do its job.
    I also want to congratulate you on the birth of your son 
last Friday. Congratulations. It has been a big week in your 
family.
    Mr. Burns, you have a long and distinguished career at the 
NRC. You have worked for many chairmen and with many 
commissioners. You started at the Nuclear Regulatory Commission 
in 1978, just 3 years after the birth of the agency.
    As we all know, the Nuclear Regulatory Commission was 
created because there was a concern that the Atomic Energy 
Agency had the responsibility of promoting nuclear power and 
regulating it simultaneously. It was considered to be an 
inherent conflict of interest so the NRC had to be created to 
just focus on the safety agenda.
    I think you brought a wealth of information right from the 
very beginning of this agency serving in a very distinguished 
way. I congratulate you and I hope you can receive the 
unanimous support of this committee.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Fischer?

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Madam Chair.
    I would like to thank the nominees for being here today and 
for your willingness to serve the public. We appreciate it.
    We, unfortunately, were unable to meet ahead of today's 
hearing so I would like to take this opportunity to share a bit 
about my home State of Nebraska and our perspective on nuclear 
energy issues.
    Nebraska has the unique distinction of being the only State 
in the Union where every single home and business receives 
electric service from publicly owned utilities. We are proud of 
our 100 percent public power system which delivers affordable 
and reliable electricity to all Nebraskans.
    Our State is fortunate to enjoy electricity costs that are 
well below the national average thanks in part to nuclear 
energy. We receive more than a quarter of our State's 
electricity from two nuclear power plants. Our citizens 
appreciate access to this clean and affordable energy source.
    The continued success of nuclear operations in Nebraska is 
dependent upon the cooperation of the Nuclear Regulatory 
Commission.
    One of the two nuclear plants in Nebraska, the Omaha Public 
Power District's Fort Calhoun Nuclear Station, recently 
sustained an extended outage of 987 days. The plant worked 
closely with NRC to ensure a safe restart and has been back up 
and running since December 2013.
    Fort Calhoun remains under increased oversight as a part of 
its restart but is working to return to the standard reactor 
oversight process at the earliest opportunity. The continued 
support of NRC to reach this goal as quickly as possible is 
very important.
    We are also hopeful that following a process of more than 7 
years, the license renewal for the Crow Butte Uranium Mining 
Operation will be completed. Also pending before the NRC are 
license applications for development of tree expansionsites in 
Nebraska so our nuclear fuel resources can be safely developed 
for years to come.
    The Nuclear Regulatory Commission plays an important role 
in ensuring the safety and security of our nuclear power and 
inspiring the public trust and confidence that we have in our 
system. As the NRC does its work, it is critical that the 
Commission adheres to its principles of good regulation: 
independence, openness, efficiency, clarity and reliability.
    Now, more than ever, we need an agency that will put these 
principles into practice from the implementation of new safety 
enhancements to the review and approval to licensing requests. 
There is a great deal at stake for the U.S. nuclear industry.
    I look forward to continuing our discussion on these issues 
and again, I offer my gratitude to the nominees for your 
willingness to serve.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Now we turn to Mr. Baran for his opening statement.
    By the way, we will put your full statement in the record. 
If you can keep it to 5 minutes, that would be great.

STATEMENT OF JEFFERY M. BARAN, NOMINATED TO BE A MEMBER OF THE 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Baran. Thank you, Chairman Boxer and members of the 
committee, thank you for the opportunity to appear today before 
the Environment and Public Works Committee.
    I am honored to have been nominated by President Obama to 
serve on the Nuclear Regulatory Commission.
    I am deeply grateful to Congressman Waxman for his kind 
words and support. For more than a decade I have had the 
privilege of working for one of the most accomplished 
legislators in our Nation's history. It has been a tremendous 
opportunity and I appreciate it.
    I also want to thank my wife, Michelle, our 3-year old 
daughter, Mia, and our newborn son, Gus.
    It is a pleasure to be here with my fellow nominee, Steve 
Burns. If confirmed, I look forward to working closely with 
Steve as well as Chairman Macfarlane and Commissioners Svinicki 
and Ostendorff.
    The Nuclear Regulatory Commission regulates 100 commercial 
nuclear reactors operating in 31 States. These reactors 
generate about 20 percent of the electricity in the United 
States, providing low carbon baseload power.
    NRC also oversees dozens of research and test reactors, 
thousands of nuclear materials licenses and a number of other 
fuel cycle facilities such as uranium recovery sites, 
enrichment facilities and fuel fabrication facilities.
    NRC has the vital mission of protecting public health and 
safety, promoting the common defense and security and 
protecting the environment. That mission has never been more 
important.
    The Commission is implementing lessons learned from the 
Fukushima accident. Five new reactors are being built while 
five older reactors are retiring. The Commission is facing a 
range of other challenging licensing and policy matters.
    If confirmed, I would approach the issues before the 
Commission with an open mind and a collegial attitude. My 
approach is to hear from all interested parties, understand the 
facts and then work to find solutions with broad support.
    I am proud of my track record of working with my Democratic 
and Republican colleagues and the Energy and Commerce Committee 
staff, as well as a range of stakeholders to develop bipartisan 
legislation that gets enacted into law.
    During the last few years, I played a significant role in 
negotiating bills that have become law with overwhelming 
bipartisan support, including the Pipeline Safety bill and 
bills on energy efficiency, hydropower and medical isotopes. I 
welcome the opportunity to bring my demonstrated consensus 
building approach to the Commission.
    If confirmed, I believe that my policymaking and legal 
experience would be an asset to the Commission. On the Energy 
and Commerce Committee staff, one of my primary areas of 
responsibility has been oversight of NRC.
    I have worked on a range of NRC issues including new 
reactor licensing, existing reactor oversight and 
decommissioning, high level waste and low level waste, imports 
of nuclear material and exports of nuclear technology and 
uranium mining, milling and enrichment issues.
    Over the years, I have had the privilege of being briefed 
by NRC senior managers and technical staff on numerous 
occasions. If confirmed, I look forward to continuing to work 
with these highly skilled professionals, benefiting from their 
insights and expertise.
    After working for Congress for more than a decade, I have a 
deep respect for the importance and value of congressional 
oversight. If confirmed, I will do everything I can to ensure 
that the committee has the information it needs to meet its 
oversight responsibilities.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Baran follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
    Senator Boxer. Thank you, Mr. Baran.
    Mr. Burns.

STATEMENT OF STEPHEN G. BURNS, NOMINATED TO BE A MEMBER OF THE 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Burns. Thank you, Madam Chairman.
    It is a pleasure to be here before you. I thank you and the 
members of the committee for the opportunity to appear before 
you today.
    I am honored to have been nominated by the President to 
serve as a commissioner on the NRC and if confirmed, I pledge 
that I will dedicate myself to the critical safety and security 
mission of the agency and to work well with my fellow 
commissioners, including Mr. Baran as well as the existing 
commissioners, Dr. Macfarlane and Commissioners Ostendorff and 
Svinicki, and to cooperate with the committee in fulfilling its 
important oversight role.
    I want to thank my family, particularly my wife, Joan, who 
is watching in Paris today via video and my son, Chris, who is 
here with me, and my daughter, Allison, for their support and 
encouragement as I appear before you today.
    I want to express my appreciation to former colleagues with 
whom I have worked over the years at the NRC for their best 
wishes and their support for my nomination.
    My professional life reflects a tradition of public service 
in my family. It goes back to my grandfather who was a 
volunteer fireman in White Plains, New York and my father, who 
after graduating from West Point, served a career in the U.S. 
Army Corps of Engineers. After retiring from the military, he 
served local governments in West Chester County, New York and 
two towns in Massachusetts.
    I learned from my father the importance of integrity and 
honesty in carrying out one's responsibilities. I have tried to 
incorporate those values in whatever position I have been 
assigned.
    As Senator Cardin noted, I retired as a career employee 
from the NRC in 2012 before taking on my current post at the 
OECD Nuclear Energy Agency in Paris. I joined the NRC in 1978 
in its honors attorneys program and as noted, spent a career 
there.
    I was provided tremendous opportunities as a young lawyer 
to work with NRC technical staff on a number of critical issues 
facing the agency such as the implementation of safety 
improvements after Three Mile Island and enhancements to NRC's 
enforcement and investigations programs.
    An important experience for me was my onsite support to an 
NRC incident investigation team in its evaluation of the loss 
of feedwater incident at the Davis-Besse plant in 1985, one of 
the most significant events after the Three Mile Island 
accident.
    These early years at the agency taught me the importance of 
good communication and cooperation with the NRC staff to 
support the NRC's mission. I served on the staff of 
commissioner and later chairman Kenneth M. Carr, a retired Navy 
admiral who had served on the USS Nautilus, the first nuclear 
submarine, who later commanded the Atlantic Submarine Fleet.
    As his legal advisor and later chief of staff, I was deeply 
involved in efforts to adopt licensing reform proposals that 
are now applied to new reactor licensing under NRC regulations, 
as well as to adopt the maintenance rule and establish a 
framework for license renewal.
    After his term ended in 1991, I became the head of the new 
Office of Commission Appellate Adjudication which the 
Commission had established to assist it in taking more direct 
responsibility for adjudicatory matters that came before the 
agency.
    In organizing the office, I focused on establishing a 
process that would allow the Commission to reach timely 
decisions on adjudicatory matters.
    When I returned to the Office of General Counsel in 1994, I 
served as associate general counsel and then deputy general 
counsel for many years. In these positions, I was senior 
counsel to the executive director for Operations and managed 
the legal staff responsible for providing advice on licensing 
and enforcement matters, personnel and contracting matters and 
representing the staff in agency adjudications.
    I served on a number of agency task forces on significant 
issues to involve the implementation, for example, of the 
agency's license renewal rule.
    The Commission approved Chair Dale Klein's appointment of 
me as general counsel in 2009. As general counsel, I managed a 
staff of some 110 employees to provide legal services across a 
range of agency activities.
    I was always mindful of the responsibility to support all 
commissioners in carrying out their duties. I always sought to 
ensure that my advice reflected due consideration of the 
relevant legal principles.
    As you know, since 2012, I have been at the NEA in Paris. I 
have been working with international partners who are members 
of the agency in accomplishing the NEA's mission to help the 
safe, environmentally friendly implementation of nuclear power 
for countries who choose to do so.
    During my work at the NEA, I have noticed the tremendous 
esteem in which the international community holds the NRC. If 
confirmed, I believe with my experience at NRC and NEA, I will 
strive to continue to try to achieve that same reputation at 
the NRC.
    I have enormous respect for the staff, I have enormous 
respect for the commissioners and I will promise you that I 
understand the importance of ensuring the strength and 
integrity of the institution to carry out its mission.
    Thank you very much.
    [The prepared statement of Mr. Burns follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Senator Boxer. Thank you.
    We have dwindled down to a precious few, as they say, but 
we now see Senator Sessions back so we will have a little more 
excitement.
    Let me say to both of you, first of all, thank you so much 
for bringing Chris here. I am sure his proud knows no bounds in 
carrying on the tradition of family service. I know Gus has 
many more interesting things to do than to be here today. I 
just want to say I appreciate the family values that you bring 
to your world and to work. We appreciate it.
    Instead of asking you this particular open-ended question, 
I am going to ask you to please write it today. The question 
is, can you briefly write about how your experience and 
qualifications will contribute to your ability to serve as an 
NRC commissioner in a very objective way and how your 
experience will lead you to fostering a collegial atmosphere?
    We all know there was a period of time, different people on 
this committee blame other people for it but that is not the 
way, we want to make sure that we can disagree and not be 
disagreeable because there may be some times when there is 
disagreement.
    We have that on this committee. Senator Inhofe and I are 
very dear friends; Senator Sessions and I have a very warm 
relationship even though we disagree. That is important. If you 
could write that to us, brief, I don't need a whole biography, 
just an answer and that would be great.
    I am sorry that Senator Barrasso had to leave. He did bring 
up an issue that Senator Reid was interested in this. So am I. 
I don't want to surprise anyone when I say this but I don't 
think it comes as a big surprise that a Majority Leader of 
either party is interested in what appointments the President 
makes.
    You can go all the way back to the original Majority 
Leaders because they set the agenda. If they feel uncomfortable 
with the appointments, it is uncomfortable for them.
    I just want to say whether Mitch McConnell was the Majority 
Leader, Harry Reid, Bob Dole, Tom Daschle, just in the time I 
have been here we have had several from both parties, they all 
cared about who the commissioners are. It is not a big 
surprise. Majority Leaders care.
    That is the system. If we don't like the system, we can 
take away the power from Majority Leaders to have any opinion 
and to schedule. Frankly, that is the one power they have, to 
schedule. That is a bigger issue than just saying Senator Reid 
cares about this. Of course he cares about this for obvious 
reasons in his State.
    We all care about our States first and foremost. That is 
the way it is. I wanted to really make that point.
    Recently, the public learned that NRC's former senior 
inspector at the Diablo Nuclear Power Plant in California told 
NRC unequivocally that the Diablo Canyon is not in compliance 
with the seismic safety requirements of its license.
    I am not going to ask you for details because you don't 
know any of the details. I just want to ask you in general, as 
a general matter, do you believe that reactor operators have to 
comply with the requirements specified by the NRC in their 
operating licenses?
    Mr. Baran. Yes.
    Mr. Burns. Yes.
    Senator Boxer. I think that is important because NRC makes 
the decision and then I think they should enforce it.
    The other question has to do with the decommissioning of a 
plant that we have, the San Onofre. So many millions of people 
live in the area and we have an issue that deals with the 
operator asking to be relieved from certain safety 
requirements.
    I am not asking your opinion on it. If you are successful, 
would you be open to meeting with me and others and talking 
about the safety of the decommissioning. Would you be willing 
to meet with me as I would meet with all the commissioners?
    Mr. Baran. Absolutely.
    Mr. Burns. Certainly.
    Senator Boxer. That is good.
    Last has to do with the withholding of documents which I 
think is critical. We are going to ask you before you leave if 
you will make these documents available to us? I am sure you 
will answer yes, everyone does, but meanwhile, we have a real 
problem. We cannot get documents. The NRC has told me there is 
a separation of powers and this committee doesn't deserve 
certain documents.
    I am going to ask you each to answer. Do you believe that 
NRC's oversight committees should get information they ask NRC 
to give them? In other words, should our committee and any 
other committee of Congress that asks you, should we get those 
documents pursuant to well established congressional oversight 
authority and will each of you work with me and others on the 
committee to improve NRC's responsiveness to Congress, whether 
it is about the budget, a particular facility or any question. 
We have different questions. Will you work with us and have 
openness because I have not seen that coming from the 
Commission lately?
    Mr. Baran. Yes, Madam Chairman. I make that commitment to 
you.
    Senator Boxer. Thank you.
    Mr. Burns. Yes, Madam Chairman. I will work with you. In my 
past experience, I have worked through a lot of issues and 
sometimes tough document issues with committees. In my view, 
the Congress has an important oversight role and we should try 
to help in that role.
    Senator Boxer. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    I say to both of you gentlemen, in my opening statement, I 
talked about my concern over the cumulative effect of costs to 
industry, to providers, to stakeholders, to the public of all 
these rules. When we complained about this, as I said in my 
opening statement, about the EPA that it is more of an 
adversarial relationship, that is one that they have a 
political agenda.
    You guys should not. I think this is something that rather 
than forcefully say we need to have this, that you should be 
doing it anyway. It is my understanding there are some 50 rules 
or regulations now that would be in some level of progress. I 
certainly do not understand where we are with these.
    On these and any others, I would ask for your commitment to 
come up with the costs, with the cumulative effect of these 
regulations.
    Mr. Baran. Thank you, Senator.
    My understanding is that the NRC staff is currently looking 
at the cumulative effects question and has had a series of 
public meetings on that topic. If confirmed, I look forward to 
reviewing their findings when they are submitted in the coming 
months.
    The NRC's focus is on nuclear safety but there are built-in 
regulatory mechanisms to make sure that the costs and benefits 
of requirements being considered are fully evaluated and that 
is the right approach.
    Senator Inhofe. We all agree that your function is to 
provide and ensure safety. However, that does not happen in a 
vacuum. Would you make a commitment insofar as that is 
concerned, Mr. Burns?
    Mr. Burns. Yes, I will commit to looking at that issue in 
cooperation with my fellow commissioners. I have prior 
experience with the backfitting rule. As I was leaving the 
agency in 2012, the idea of doing a more focused effort to 
consider cumulative effects was under consideration. I will 
commit to doing that.
    Senator Inhofe. That is good.
    When you try to explain this to someone who is outside of 
Washington, they don't understand it. I have tried. I am at 
fault because I was the chairman at that time of the 
subcommittee that jurisdiction of preparing for a major 
increase in nuclear activity on behalf of the NRC that they get 
themselves prepared for that with the staff.
    They went from 1,500 to 3,800 people. Let me think about 
that. That is more than double, 1,500 to 3,800 people. The 
budget actually tripled from $300 million to $1 billion. Now, 
instead of having the anticipated 1,700 construction and 
operating licenses, we have 2.
    This should be a no-brainer. It is not your fault but you 
are faced with this now. I want to see some kind of response to 
this. Is one of the responses to bring it back down to the 
previous levels before in terms of personnel and costs? What do 
you think, Mr. Baran?
    Mr. Baran. The NRC staff is taking a look at this very 
issue.
    Senator Inhofe. Wait a minute. You are having the staff 
look at the issue as to themselves, the justification of staff. 
I am not sure that is a real objective process, is it?
    Mr. Baran. My understanding is they are taking a 5-year 
look and trying to make sure that resources, including 
personnel, are matched in a good way with the workload. That 
assessment is going to be presented to the Commission.
    Senator Inhofe. If that occurs, there are jobs for 5 years 
then, is that what you are saying?
    Mr. Baran. It is a policy issue that would be decided at 
the Commission level with the input of the staff currently 
taking a look at the staffing levels and how that matches up.
    Senator Inhofe. Mr. Burns?
    Mr. Burns. Senator, I think, as Mr. Baran noted, I think 
the Commission's responsibility is to take a hard look at what 
the staff valuation. My experience is staff always is providing 
to the Commission proposed budgets through the budget cycle and 
the budget processes.
    I agree with you that you have to take a hard look at what 
the agency's priorities are and the work it has on its plate 
and ensure it is focused on the safety mission. To the extent 
there are licensing issues before it, it should ensure those 
are adequately addressed.
    My commitment to you is I am willing to take that hard look 
to assure the agency's resources are focused in the right way.
    Senator Inhofe. Madam Chairman, my time has expired but my 
last question has to do with Fukushima. Should I go ahead and 
do that or save that for another round? What is your 
recommendation?
    Senator Boxer. We are not going to do another round so go 
right ahead.
    Senator Inhofe. A lot of the regulations being considered 
by the NRC today are in response to the Fukushima disaster in 
Japan. I think one thing that often gets lost in the discussion 
is how different our cultures and regulatory structures are. In 
many ways our system is always well protected against an 
accident like that happening here at home.
    In some areas, it has to do with who can make the decision 
and in other areas, it has to do with our experience from 9/11.
    Could each of you discuss how the Japanese and the U.S. 
cultures and regulatory models are different? I mentioned this 
to both of you in the office, but it needs to be in the record. 
Would you do that?
    In other words, where are we that it is different from 
Fukushima and the regulatory system that was found at that time 
in Japan?
    Mr. Burns. Senator, as you and I discussed yesterday, very 
quickly, there are two things. One, I think the U.S. learned 
the lessons of the importance of a strong regulator and a 
separate regulator in the 1970's, both when the NRC was created 
out of the AEC, as Senator Markey referenced, and also the 
lessons coming out of Three Mile Island.
    In terms of what I will call the institutional structures, 
I think that was very important to the United States.
    The second thing I would say is, as you note, there are a 
number of things the U.S. and the NRC did after 9/11 that I 
think had benefits across the board. Some of those things were 
not adopted in Japan. I think we benefited from that.
    There are things that the agency has under consideration. I 
don't know the particular status of them, but those are things 
I think we need to look at to make sure the commitments the 
agency made to follow through and make decisions on are done.
    I would agree with you. I think there are some things that 
we were in good stead and it is assured that those things are 
strong and if need be, to be built upon.
    Senator Inhofe. Do you agree with that, Mr. Baran?
    Mr. Baran. Yes, I do.
    Senator Inhofe. Just for the record, you might send me the 
specifics you are talking about which we probably already have 
but I want them coming from you. Would you do that?
    Mr. Baran. OK.
    Mr. Burns. Certainly.
    Senator Inhofe. Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator Inhofe.
    Senator Markey.
    Senator Markey. Thank you.
    I was able to insert language into last year's omnibus 
appropriations bill that reversed NRC's efforts to withhold 
information from Congress and restore the old document policy. 
I am disappointed to say that the NRC is currently breaking 
that law.
    That is because NRC is withholding documents that I have 
requested on a range of important issues, including the 
circumstances under which NRC allowed Chinese nationals 
unescorted access to Westinghouse nuclear reactors at the very 
same time that other Chinese spies were hacking into 
Westinghouse.
    If you are confirmed, do each of you commit to following 
the law which calls for NRC to provide non-public documents to 
members of NRC's oversight committees and members who are 
asking for information about reactors located in their States 
or near their States?
    Mr. Baran?
    Mr. Baran. The 2011 internal Commission procedure which you 
earlier referred to is the hold procedure. It ensured that 
documents were available not just to the committee but to 
individual members of the committee, to Senators or House 
members who had facilities in their districts or States.
    I believe that was the right policy. The appropriations 
bill makes it clear that is the policy that is now in effect.
    Senator Markey. Mr. Burns?
    Mr. Burns. I was familiar with working under the old 
procedures and I am comfortable working under those old 
procedures.
    Senator Markey. Thank you.
    Fukushima reminded us of the devastating effect of a 
nuclear reactor meltdown. Radiation from the accident was 
detected over 1,000 miles away. Land contamination continues to 
keep tens of thousands of people from returning to their homes. 
Cleanup cost estimates continue to rise with industry admitting 
it will cost over $100 billion.
    Meanwhile, in the United States, we have packed so much 
radioactive waste into spent fuel pools that even NRC studies 
conclude that spent fuel fires could spread as much 
contamination as a meltdown of an operating reactor.
    The spent fuel pools at Pilgrim Nuclear Power Plant, for 
example, is currently holding nearly four times the amount of 
waste it was designed to hold.
    According to NRC and other studies, if the water were to be 
drained from a spent fuel pool causing the spent fuel to heat 
up and catch fire, the consequences could be worse than a 
nuclear meltdown at an operating reactor.
    Do you agree that the more spent fuel is stored in these 
pools, the faster it could heat up and ignite if the pool's 
water was drained? Mr. Baran?
    Mr. Baran. Yes.
    Senator Markey. Mr. Burns.
    Mr. Burns. Certainly the issue has to be looked at, whether 
or not in terms of the capacity of the pools and particularly 
what I will call the relative, not fresh fuel, but how recently 
it has been in the reactor. You certainly need to look at that 
to assure that the pools are safe or take measures otherwise.
    Senator Markey. Isn't it also true that the more fuel which 
is in the pool, the greater the potential consequences if a 
spent fuel fire were to occur? Mr. Baran?
    Mr. Baran. Yes, I believe that is correct.
    Senator Markey. Mr. Burns.
    Mr. Burns. Again, consistent with my last answer, again, I 
think it depends on how recently the fuel has been there but it 
is something you need to look at and be concerned about.
    Senator Markey. Isn't it true that storing the fuel in dry 
casks storage containers would remove the need for pumps and 
other equipment needed to keep the pools full of water and 
would also greatly decrease the likelihood of a spent fuel 
fire? Mr. Baran?
    Mr. Baran. The dry casks are passive systems, so you 
wouldn't require pumps and other devices to have them operate.
    Senator Markey. Mr. Burns.
    Mr. Burns. I would agree that they are more passive 
systems.
    Senator Markey. A recent NRC study that concluded that the 
spent fuel could be stored in spent fuel pools indefinitely 
only fully evaluated the risk of a major earthquake, ignoring 
other large scale disasters and terrorist attacks. They said 
the probability of other events is so low that they don't even 
need to evaluate them.
    Do you agree that it is possible for other large scale 
disasters, such as a major hurricane or ongoing terrorist 
attack, to both cause damage to spent fuel pools and make it 
more difficult to quickly get necessary equipment to a site to 
repair the damage? Mr. Baran?
    Mr. Baran. I would agree that as a general matter, if it is 
a natural disaster situation, that makes response more 
difficult for spent fuel pools and other aspects of the 
facility.
    Senator Markey. Mr. Burns?
    Mr. Burns. Generally, you have to take account of the types 
of potential threats that you have, whether that is a security 
threat or a range of natural disasters that may be potentially 
experienced at that site. I agree that you need to look at 
those things.
    Senator Markey. That is why I recently introduced the Dry 
Cask Storage Act which gives plants 7 years to remove all of 
the waste that can be removed from the pool and put it into 
safer dry cask storage, provides funding to help offset the 
cost and increases the size of emergency planning zones around 
plants that choose not to remove the waste from their pools.
    Thank you, Madam Chairman.
    Senator Boxer. Senator, do you need more time? Because we 
are finishing up the round. I will give you another minute or 
two like I gave Senator Inhofe. I will do that for all 
colleagues.
    Senator Markey. Thank you.
    A recent National Academy of Sciences report said that the 
NRC should actively seek out and act on new information about 
hazards that have the potential to effect nuclear plant safety, 
including extensive flooding and geomagnetic disturbances which 
could affect large portions of the electric grid.
    The report also pointed out that extreme events like these 
can produce severe accidents at nuclear plants that damage 
reactor cores and stored spent fuel.
    Do you agree that the NRC should, as a general rule, 
evaluate a full range of realistic threats to reactors and 
spent fuel pools? Mr. Baran?
    Mr. Baran. Yes.
    Mr. Burns. Yes.
    Senator Markey. Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Sessions.
    Senator Sessions. Thank you.
    Mr. Burns, you have been counsel at the agency for 33 
years?
    Mr. Burns. In different roles, yes, Senator.
    Senator Sessions. How would you describe congressional 
creation of the NRC and its independent status?
    Mr. Burns. How would I describe it?
    Senator Sessions. Yes, the concept of the independent 
Nuclear Regulatory Commission?
    Mr. Burns. I think what the Congress did is it tried to 
establish an agency like other independent regulatory agencies 
that existed in terms of a multimember commission, bipartisan 
in the sense that you weren't dominated by persons from one 
party or the other.
    The other thing it did, actually more so under the 
reorganization plan that President Carter adopted after the 
Three Mile Island accident, you have the basic principle in the 
original legislation and the reorganization plan about what I 
will call majority rule, that basically the Commission decides 
matters of policy, adjudications and things like that.
    In the reorg plan, you have a plan for the chairman in 
certain areas but basically, it is majority rules, the rule of 
three, if you will.
    Senator Sessions. With regard to the concept of the agency, 
you are open to hear from politicians, American citizens, and 
special groups but you hold the responsibility, do you not, as 
an entity to do an independent job, a non-political job in 
making the decisions that protect the safety and effectiveness 
of the nuclear power industry?
    Mr. Burns. I think that is the strength of the agency and 
the structure that is created. I think you are saying that is 
part of the intention.
    Senator Sessions. The Chairman talked about Senator Reid 
and every Senator has a right to be critical and be aggressive 
with regard to this commission or any other commission. 
However, a commission has a duty, let me ask you, Mr. Baran, to 
listen to the inputs from politicians or even Senator Reid. 
Then you are required to make an independent judgment, are you 
not?
    Mr. Baran. That is correct.
    Senator Sessions. Do you agree with that?
    Mr. Burns. I would agree.
    Senator Sessions. Just looking at the Politico article from 
2 weeks ago, one commissioner referring to Senator Reid keeping 
score against members of the Commission who didn't act as he 
approved and saying one commissioner was forced out last month 
and another is due to depart Sunday after it became clear he 
would have trouble winning a new term, partly because of their 
stances on Yucca where Mr. Reid felt strongly and because they 
joined a revolt against former agency chairman, Gregory Jaczko, 
a one time Reid aide.
    Reid has spent the past 2 years repeatedly trashing one of 
the commissioners, Commissioner Magwood, calling him a disaster 
and I won't read the other things he said about him.
    Are you prepared to take the heat and do the right thing no 
matter what some Senator would say about it?
    Mr. Burns. Yes, Senator, I am. Going back to your question 
on structure, that is one of the reasons that the agency is 
structured with terms of a specific length because that is one 
of the things that enhances the independence of the 
commissioners who serve in those positions.
    Senator Sessions. A lot of people worried about that.
    Do you understand, Mr. Burns, that Congress has established 
Yucca Mountain as the depository for nuclear waste? Is that the 
law of the United States?
    Mr. Burns. The Nuclear Waste Policy Act is the law of the 
United States, yes.
    Senator Sessions. Mr. Baran and Mr. Burns, is it your duty 
as Commission members to comply with the law of the United 
States?
    Mr. Baran. Yes, it is.
    Mr. Burns. Yes.
    Senator Sessions. Will you do so?
    Mr. Baran. Yes, I will.
    Mr. Burns. Yes, I will comply with the law of the United 
States.
    Senator Sessions. With regard to the disclosures, this is 
an independent agency that has certain responsibilities to 
conduct its business properly. It has certain internal 
deliberations. I assume there are rules at the Nuclear 
Regulatory Commission on what should be disclosed and what 
should not be disclosed, are there not? Will each one of you 
answer that yes or no?
    Mr. Baran. That is addressed in the internal Commission 
procedures, yes.
    Senator Sessions. Mr. Burns?
    Mr. Burns. Yes, it is addressed there, but also it is 
governed by the Sunshine Act and some other administrative 
statutes that govern the agency's operations.
    Senator Sessions. I understand the chairman and the 
committee found certain requests from Congress to be improper 
and have not disclosed certain documents. They have disclosed 
many. Consistent with the regulations, will you comply with the 
regulations even though Senators or other groups might ask that 
you produce documents that, if produced, would be in violation 
of the regulations duly established by the agency?
    Mr. Baran. The committee and the Congress generally have an 
important oversight role. I believe the NRC should work to make 
sure that the committee has the information it needs to perform 
its constitutional oversight responsibilities.
    Senator Sessions. Does that trump the rules of the 
committee on disclosure or should you change the rules before 
you disclose?
    Mr. Baran. I don't think there is anything about the rules 
that prevents disclosure.
    Senator Sessions. Of everything?
    Mr. Baran. I think there could be particularly sensitive 
documents where it is important to have discussions between the 
Commission and the committee about how the Commission can best 
ensure the committee gets the information it needs to perform 
its duties.
    Senator Sessions. Mr. Burns? Do you comply with the rules 
of the committee on disclosure or not?
    Mr. Burns. The rules of the Commission?
    Senator Sessions. Yes, the Commission.
    Mr. Burns. The rules of the Commission. I think the rules 
of the Commission are there to guide how the agency responds to 
it but those rules have to conform to what other basic legal 
principles that apply, for example, communication with the 
Congress.
    Senator Sessions. Presumably the Commission established its 
rules considering those things and they believe their rules 
comply with other laws. You were the counsel there. Is that not 
true?
    Mr. Burns. Right. I operated under the rules of the 
Commission in 2011 which basically said in difficult questions 
about disclosure of documents to the Congress, we should be 
discussing that with the committees and trying to reach 
accommodation.
    I agree with you that the rules essentially are intended to 
conform to the general legal principles. Again, those are often 
a difficult area, particularly in communications with the 
committee.
    Senator Sessions. Apparently there is an honest 
disagreement between the Commission and the committee and some 
of our members on some of these issues. I don't know the 
details. I respect my colleagues' desire to find out all that 
they can find out but I also respect there are rules that are 
to be complied with.
    Thank you for that. I will submit some more written 
questions but I think this is a very important commission. It 
is important to the future of the country and I hope you will 
conduct yourselves as independent, responsible leaders and not 
be pushed around as a result of political pressure.
    Thank you very much.
    Senator Boxer. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Madam Chairman.
    I think my distinguished colleague's questioning to both of 
you about the legal rules and the legal analysis relating to 
the matter of the ongoing congressional oversight of this 
committee helps explain why you are qualified for this position 
and why the legal expertise and the congressional oversight 
experience that Mr. Burns and Mr. Baran respectively bring will 
be valuable assets to the Nuclear Regulatory Commission as it 
goes about its business.
    My questions have to do with the two topics I mentioned in 
my opening statement. I understand it is the Department of 
Energy, not the Nuclear Regulatory Commission, that is 
primarily involved in developing new nuclear technologies and 
trying to help move us toward a more carbon free energy 
posture.
    As I understand it, there are ways, particularly where 
private institutions are involved, that the NRC does have a 
role. Could you explain that role, either of you, and let me 
know what your feeling is about the extent to which your 
organization, as I said in my opening statement, not become an 
undue impediment to the development of these important new 
technologies. Let me start with Mr. Baran.
    Mr. Baran. I think the Nuclear Regulatory Commission's 
primary function in this regard is to make sure it has an 
efficient and effective licensing process for new reactors and 
for new reactor designs.
    For example, for small modular reactors, there is a design 
certification application expected next year and then another 
that is likely to come the following year. I think it is 
important for NRC to be thinking ahead of what are the 
potential novel issues that may be presented by those new 
designs and start that process early, start having 
conversations early with the potential applicants so there can 
be expeditious consideration of those applications when and if 
they are submitted.
    Senator Whitehouse. I think the question, to use your 
words, should be thinking ahead and starting early, is really 
at the crux of this because if somebody is interested in 
putting the investment into developing one of these 
technologies, to them the regulatory cost and burden down the 
road is a black box that they can put no value on, either in 
time or money, then that could be an impediment to going 
forward.
    Even if they could see into the black box, they would 
actually know that this is doable. The fact that it is a black 
box, the fact there have not been early conversations, the fact 
they don't have any sense that the development of those 
technologies would be welcomed, could itself be the barrier.
    I would hope that both of you would agree that would be a 
very unfortunate, unnecessary and almost improper barrier under 
these circumstances. Mr. Burns?
    Mr. Burns. Yes, I would agree. The important thing, I think 
for the Commission and what I would commit to looking at if 
confirmed, is the question of the clarity with which the agency 
either expresses its rules or the applicable criteria for these 
types of designs.
    We know basic safety requirements but how do you move 
through, are the processes there, is the one step licensing 
really an appropriate process for a prototype or is there a 
more staged license where you make safety decisions that 
eventually get you a holistic decision at the end?
    Those are the types of things I think if you are looking at 
the generation for and some of these designs, you are probably 
going to want to at least consider how you would do that if 
people come forward, as you say.
    Senator Whitehouse. Do you both commit that you will put 
your attention to those questions as members of the Commission? 
I don't want this to be just happy answers in a congressional 
committee and then when you are over there, it is back to the 
black box or the black hole or whatever you want to call it.
    Mr. Burns. No, I commit to do that.
    Mr. Baran. Yes. It should not be a black box.
    Senator Whitehouse. Thank you.
    Senator Boxer. Senator, thank you very much.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chair.
    I have some questions for both of you gentlemen.
    The NRC's timely review of license submittals is critical 
to the success of our domestic uranium industry. I mentioned 
that in my opening statement.
    At present, in Nebraska, there are multiple relicensing 
proposals and new license applications that have, to date, 
taken 7 years. That is a long time to review.
    I have written to the Commission to encourage swift action 
in order to protect the economic environment of the communities 
that have relied for decades on these operations, operations 
that safely and responsibly produce critical fuel for our 
Nation's domestic nuclear and energy industry.
    In response, the Commission has stated that the reviews are 
continuing, but that it may take another full year before a 
final decision is made.
    Should you be confirmed, will you commit to working with me 
and my office to engage in these licensing and relicensing 
efforts so that a final decision is rendered in a timely and 
efficient manner?
    Mr. Baran. Yes, if confirmed, I would be happy to work with 
you and take a look at that issue.
    Mr. Burns. I would be happy to look at that. Again, I think 
it is not unlike the question Senator Whitehouse asked about 
assuring that the process is fair but also efficient.
    Senator Fischer. Are you aware of the issue I just spoke 
about? Have you had any contact with the problems we are 
facing?
    Mr. Burns. Not recently, no.
    Senator Fischer. Thank you.
    In a recent vote by the NRC on filtered vents, we have seen 
Commissioner Magwood express concern with approaches to 
regulation that rely upon qualitative instead of quantitative 
factors. He described such an approach as an extraordinary step 
that goes well beyond previous NRC guidance.
    He also noted that Chairman Macfarlane's analysis in that 
vote could be used to justify essentially any regulatory 
change.
    Can you tell me your view of the proper use of qualitative 
factors in regulatory decisionmaking by the NRC?
    Mr. Baran. I think over the years, when the NRC has done 
its cost benefit analysis, typically, as I think most agencies 
do, it focuses primarily on the quantitative elements of that 
but it also in the past has considered qualitative factors as 
well. I think it is important in some cases to consider 
qualitative factors.
    As you point out, that can be challenging because it is not 
the same enterprise as when it is strictly quantitative. I 
think there is a role for it on certain occasions but I do 
think it has to be done carefully.
    One of the factors that came up in that particular vote, I 
believe, was just defense in-depth, the idea that some concerns 
that NRC looks at are very low probability but high consequence 
events and sometimes a strictly quantitative review of that can 
leave out important factors.
    Senator Fischer. You would say it is within the NRC's 
guidance that those qualitative factors should be looked at?
    Mr. Baran. My understanding is that the guidance does 
provide for the consideration of qualitative factors.
    Senator Fischer. You would disagree with the commissioner 
who made those statements, then?
    Mr. Baran. It has been a while since I read that particular 
vote and I don't know that Commissioner Magwood would say it 
never makes sense to examine qualitative factors, but I think 
there can be a role for both quantitative and qualitative.
    Senator Fischer. Mr. Burns?
    Mr. Burns. I am actually not familiar with that particular 
vote that Commissioner Magwood weighed in on.
    Historically, my recollection is that the agency, over the 
years, tried to apply sort of the best decisionmaking methods, 
whether what they originally called the deterministic method to 
more risk informed. When you went risk informed, you do have 
the consideration of qualitative factors. Again, that may be 
vote dependent or issue dependent.
    You want to make sure that you have a good grounding in the 
technical analysis that you have but there may be qualitative 
factors. I would be happy to look at that and be sensitive to 
that. Unfortunately, I just cannot comment on the particular 
filtered vent issue.
    Senator Fischer. Thank you. Just one more question if I 
have time?
    Senator Boxer. Go ahead.
    Senator Fischer. On May 19, 2014, the Commission acted on 
an NRC staff recommendation regarding three specific 
recommendations arising from the near term task force report's 
suggestion to review whether the NRC should establish a 
logical, systematic and coherent regulatory framework for 
adequate protection that appropriately balances defense, in-
depth and risk considerations.
    The three staff recommendations were approved by the 
Commission even though the NRC staff also acknowledged that 
these changes are not needed to maintain safety of nuclear 
power reactors.
    Do you agree with the action that was taken by the 
Commission?
    Mr. Burns. Again, I am not sure exactly what they did. I 
recall that the No. 1 task force recommendation was this notion 
of looking more holistically. I think importantly, the agency 
needs to carry out, in the particulars applied to particular 
plants, particular licensing or safety issues, what it does.
    There may be some benefit in making a greater coherence. 
Again, I would be happy to look at that. I am just not familiar 
with exactly what they did.
    Senator Fischer. If these requirements are imposed on 
nuclear reactors and it hasn't been shown that you are going to 
see any enhancement of safety, do you think it appropriate to 
require that then and the cost involved for those reactors?
    Shouldn't we have to prove it is for safety concern when we 
have an argument going on, not an argument but a discussion 
going on between staff and the Commission and it is moved on 
anyway?
    Mr. Burns. Yes, and I think you need to have something that 
provides a justification for what you are doing and that there 
is a benefit to it. As I said, I am not familiar with the May 
vote. I am familiar with the issue that may have led to it from 
the original task force report.
    I would be happy to take a look at that. Generally, I think 
you want to get to a point where it makes sense for what you 
are doing that there is a safety benefit for it.
    Senator Fischer. Right. We are all concerned for the 
safety. I think we all agree upon that, but when requirements 
are made by government with no proof of benefit, I have 
concerns with the cost.
    Mr. Baran, would you like to reply as well, please?
    Mr. Baran. I am not familiar with that particular vote but 
I would note that the NRC has something called a backfit rule 
which says if you are going to apply a new regulatory 
requirement to an existing facility, in that situation unless 
that new requirement is necessary for adequate protection of 
public health and safety, the benefits of that requirement 
would need to exceed the cost.
    Senator Fischer. Thank you both very much. Again, thank you 
for being here today.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much.
    I am going to ask each of you a question that I have to ask 
all nominees. There are three questions, yes or no.
    Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee and other 
appropriate committees of the Congress, and provide information 
subject to appropriate and necessary security protection with 
respect to your responsibilities?
    Mr. Baran. Yes.
    Mr. Burns. Yes.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings and documents in electronic and other forms of 
communication of information are provided to this committee, 
its staff and other appropriate committees in a timely manner? 
By that, I mean all members of this committee regardless of 
party?
    Mr. Baran. Yes.
    Mr. Burns. Yes, I do.
    Senator Boxer. Three, do you know of any matters which you 
may or may not have disclosed that might place you in a 
conflict of interest if you are confirmed?
    Mr. Baran. No.
    Mr. Burns. No.
    Senator Boxer. Thank you very much.
    I am going to place in the record Section 6 of the Nuclear 
Waste Policy because it is important. I wish I had the chance 
to discuss this with Senator Sessions, but I will talk with him 
about it.
    Section 6 of the Nuclear Waste Policy only allows agencies 
to spend the money Congress gives them for Yucca. In 2010, for 
the 2011 year, all Congress gave NRC was $10 million that was 
requested to close out Yucca. That is what the Commission did 
and did not vote to overturn that decision.
    I think it is important. It keeps coming back like a bad 
dream, but the fact is Congress voted the money and it was only 
$10 million. That was enough to shut it down. I wanted to get 
that in the record.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. I want to say to both of you I am so 
impressed with your experience. I also appreciate the attitude 
you bring here because you are seasoned professionals and 
understand that there are disagreements. We just want from you 
what you think is the right thing for this industry in terms of 
safety.
    Of course my colleague, Senator Inhofe, makes a point. We 
also have to make sure we look at how we are putting together 
these regulations and whether they make sense or not.
    I want to thank both of you.
    I hope to move this very, very quickly. It will be up to 
everyone to cooperate on that.
    I want to thank Senator Vitter in particular for really 
helping us move this forward. It was very magnanimous of him. 
He said to me, well, I hope you will cooperate when we want to 
move people forward. Of course, we will.
    We are going to move on this on Thursday and have a vote. 
We will let everyone know. We need your answers yesterday.
    Thank you very much.
    We stand adjourned.
    [Whereupon, at 11:32 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
